U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

May 28, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Children’s Hospital Ass’n of Texas v. Azar, No. 19-1203

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 6, 2020.
The government’s response is now due, after one extension, on June 10, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and includ ing
July 10, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1203
CHILDREN'S HOSPITAL ASSOCIATION OF TEXAS,
ET AL.
ALEX M. AZAR, II, SECRETARY OF HEALTH AND
HUMAN SERVICES, ET AL.

ADITYA DYNAR
NEW CIVIL LIBERTIES ALLIANCE
1225 19TH STREET, NW
SUITE 450
WASHINGTON, DC 20036
202-869-5210
ADI.DYNAR@NCLA.LEGAL
KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROSWELL, GA 30075-7509
770-977-2131
KHERMANN@SOUTHEASTERNLEGAL.ORG
DANIEL G. JARCHO
ALSTON & BIRD LLP
950 F STREET, NW
WASHINGTON, DC 20004
DANIEL.JARCHO@ALSTON.COM
W. SCOTT O'CONNELL
NIXON PEABODY LLP
900 ELM STREET
14TH FLOOR
MANCHESTE, NH 03101
603-628-4000
SOCONNELL@NIXONPEABODY.COM

DAVID B. SALMONS
MORGAN, LEWIS & BOCKIUS LLP
1111 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
202-373-6283
DAVID.SALMONS@MORGANLEWIS.COM

